                               FOR OFFICIAL USE ONLY
                                    UNITED STATES OF AMERICA
                          FEDERAL LABOR RELATIONS AUTHORITY
                             OFFICE OF THE INSPECTOR GENERAL
                                      WASHINGTON, D.C. 20424-0001




May 2, 2003

Subject:      Inspector General FLRA Human Capital Progress Assessment
              Follow-up on FY 2000 Internal Review of FLRA Human Capital

Background: The actual foundation for human capital was developed in 1993 by the
National Performance Review (National Partnership for Reinventing Government). The
concept reflecting that human capital resources were an asset vice a cost occurred when
Congress passed the Government Performance and Results Act. Congress continued
passing legislation that integrated human capital investment strategies and performance
management (i.e. Federal Acquisition Streamlining Act, Clinger-Cohen Act, Government
Information Security Act, Government Performance Results Act, etc.) because human
resources are the most essential resource for accomplishing Federal Agency=s mission.

Congress has always recognized that human resources are the most important asset of the
Federal Government. As the Federal government strives to change it=s structures and
emphasize its focus on customer service, performance based budgeting, delayering
management positions to be replaced with working level positions, learning that Agency=s
can do more with less if they attract, hire, and retain skilled employees with broad based
knowledge and appropriate behavioral qualities, the management of human capital
investments becomes even more important.

Human capital may be the most difficult government wide standard for management to
address because of the actual challenges the Federal Government faces in the personnel
area. The current skills imbalances, significant pending retirement of experienced and
knowledgeable Federal employees, current outdated personnel and payroll policies and
lack of flexibility to acquire and develop talent and leadership are issues that the current
Administration is addressing. Overall, progress in Federal agencies to improve human
capital standards has been slow because most managers have addressed other standards
that they feel are more important such as financial management, competitive sourcing
and procurement weaknesses. However, the bottom line is that, in reality, none of these
other standards can be improved or achieved without dedicated, motivated, and

                                               6
                              FOR OFFICIAL USE ONLY

appreciated employees.

The current Administration is committed to strengthening the relationships of pay for
performance, particularly for employees with significant program and /or human capital
management responsibilities. The management of employees is not the responsibility of
the Human Resources Division but is the responsibility of every manager and supervisor.
 Current leaders, managers and supervisors must address a significant challenge by
engaging in creative and effective approaches for managing today=s diverse, highly skilled,
well educated employees who prefer to be challenged and want to broaden their
knowledge, be assured of continuous growth, and remain challenged with continuous
growth, knowledge and job opportunities. Public leaders need to treat employees in a way
that brings out their potential as individuals. Leadership should ensure that employees
are always treated with dignity and respect, every day by every one. Employees should
have a work environment and tools to promote contributions which are meaningful both
to the Agency and employee and appropriately recognized.

Working level employees have new challenges which result from changes in their previous
working concepts such as taking responsibility for their actions, engaging in continuing
training, and focusing on Adoing it right the first time.@ Leaders and managers must
devote more time to mentoring and communicating with their employees, creating a
trustful and respectful work environment, promoting innovation and thoughtful risk
taking and being accountable for their work. Leaders, managers and working level
employees who have committed to public service must accept the fact that the
Government is changing and there are new standards of performance, stronger but more
simplified technical and administrative systems requiring more accountability and the
need for corporate continuity and planning. Also, everyone should be aware of a very
basic work ethic principle, that to excel, it is not necessary to be in a supervisory or
management capacity. Leaders need to focus on developing and interacting with
employees in a way that brings out their potential instead of stifling it. Such a focus
benefits everyone. Mentoring provides on the job training and development of
employees. Treating employees as an asset benefits Agency productivity, employee
motivation and dedication and supports contemporary management skills. Frequent
communication benefits managers as well as employees by providing a clear sense of the
culture and a benchmark for success and insight into what works and what doesn=t work.
The ideal employee will readily adapt to change, be willing to work and do whatever is
necessary, welcome increased responsibility, have strong interpersonal skills and be
motivated to learn new skills. This is the essence of human capital.
The current Administration has focused on human capital even more by defining it as one
of the five government-wide standards of the President=s Management Agenda. Although

                                            7
                              FOR OFFICIAL USE ONLY

the Office of Personnel Management is currently in the process of drafting some changes
in this area, at the time of this assessment the government-wide standards for human
capital standards included:

             1. The alignment of human capital strategy with Agency mission, goals and
             organizational objectives including:

                    a. integration into budget and strategic planning;

                    b. compliance with standards for internal accountability systems
                    which ensure merit-based human resource management, and

                    c. consistent with OPM=s human capital scorecard (Issued in
                    December1, 2001.)

             2. The Agency has a citizen-centered organizational structure that is
             delayered and oriented toward performing the mission assigned to it.

             3. The Agency sustains high performance workforce that is continually
             improving productivity, strategically uses existing personnel flexibilities,
             tools and technology and implements effective succession planning.

             4. There are no skill gaps/deficiencies in mission critical operations.

             5. The Agency differentiates between high and low performers through
             appropriate incentives and rewards.

             6. Changes in Agency workforce skill mix and organizational structure
             reflect an increased emphasis on e-government and competitive sourcing.

During FY 2000, the FLRA Inspector General conducted an Internal Review of FLRA
Human Capital Investments. For a small quasi-judicial agency whose appropriations are
primarily allocated for paying its employees salaries and benefits, human capital
investments were an important management factor. This review also affirmed that the
FLRA workstaff was highly educated, but the FLRA generally hired its attorneys and labor
relations specialists at an entry level (GS-9, GS-7, respectively) which was lower than
other Federal adjudicatory agencies. The management drivers for entry level hiring by the
FLRA was due to a combination of labor-market conditions, FLRA=s significant budget
restrictions, management=s desire for internal molding of its legal staff and obtaining

                                            8
                              FOR OFFICIAL USE ONLY

more for the dollars spent. Generally, from FLRA=s management=s perspective and
employees= standpoint, the lack of promotion opportunities was a concern. During FY
2000 the FLRA=s turnover rate was higher than the norm. The reasons could not be
determined at that time because of the lack of exit interviews and related statistics.

Although the FLRA had established an Upward Mobility Program and a Leadership
Program both programs had limited success and needed strengthening. The basic
problem was that positions defined for upward mobility were very limited and rarely
vacant. At the time of the FY 2000 review, the Human Resource Division (HRD) was
strengthening its program , working fairly close with component managers, and orienting
itself to focus on recruiting and retaining a multi-skilled diverse workforce which would
achieve the Agency=s mission. The HRD also worked with management and the
Partnership Council to develop core competencies, performance management and
development programs. A focus was also placed on workplace security and safety due to
several incidents occurring at the Headquarters facility and threats made at three FLRA
Regional Offices. An objective evaluation of FLRA=s Headquarter=s security was
performed by the Federal Protective Service which also provided a security briefing to
FLRA Headquarters employees. FLRA=s Employee Assistance Program was handled
through the U. S. Public Health Service while it=s Health Program was performed by the
Health Care Service of the Department of Treasury. Both of these programs were
managed appropriately but employees were not aware of the extensive health services
available to them.

The FY 2000 Review revealed several vulnerabilities in technology and the lack of tools
for some employees. Although software upgrades were made to all computers converting
them from Word Perfect 6 to Word Perfect 8 and were in compliance with Y2K, internal
integration and security vulnerabilities existed. This review also revealed that although
philosophically, FLRA management stated they maintained a collegial, progressive,
innovative and participative environment, the focus of a significant amount of managers
and employees was rather narrow in scope and focused on their assigned organizational
entity rather than from an agency-wide perspective. At this time, distinct management
philosophies existed among the three organizational entities, the Authority, the Office of
General Counsel and the Federal Service Impasses Panel.

Compared to other small Federal Agencies in FY 2000, the FLRA was progressive in its
approach and acceptance that human capital resources were an asset. The FLRA had
dedicated over 75% of its appropriations to pay for its educated workforce. Career ladder
and upward mobility positions had been established. The FLRA=s strategic planning was


                                            9
                              FOR OFFICIAL USE ONLY

good, its Human Resources Program improved significantly, and several programs
specifically oriented to benefit employees, such as Flexiplace, Transit Subsidy, Alternative
Work Schedule Program, and Tier I and II Leadership Programs were implemented. The
Review also revealed that the FLRA considered the training of employees important and
actually spent much more than the training funds allocated for each employee. This was
commendable because previous studies have shown that three times more productivity is
gained by investing in human capital training than if the same money was spent on new
equipment or technology.

Another commendable program at the time of the Review was the FLRA Employee
Recognition and Awards program which recognized exceptional employee performance
throughout the year. In spite of a very restrictive budget, the FLRA recognized the
contributory performance of employees with performance awards.

The FLRA also conducted annual 2 2 day Employee Orientation Programs for new
employees. Employees have found this program very helpful. The only weakness in this
program was that employees who come on board after the Orientation, have to wait
almost a year for the new orientation, although their immediate supervisors and Human
Resource Director provide them with individual orientations. The Review revealed that
FLRA management, as a whole, was sensitive to its employees= professional, personal and
private life obligations and that many managers and employees spontaneously helped one
another during difficult times (medical, private life situations, etc.) The Review also
verified that FLRA managers and working level employees were very generous to the
Combined Federal Campaign as well as private sector charities.

The FY 2000 Review also revealed that FLRA had focused on Workplace and Information
Security, Health and Safety since the September 11, 2002 issue. However, the
implementation of Security policy is still pending. The transition of the FLRA to the new
Administration=s Federal management requirements has been slow and resisted by some
senior executives and line managers who correlate these requirements to micro
management. The statutory structure of the FLRA has not been conducive for a
corporate Agency mentality because it created three distinct and independent legal
components (actually four counting the Foreign Panel) and created the Chairmanship
(CEO) in the Authority. The FY 2000 Review validated that employees were bonded to
their own organizational entities. Current leadership has successfully changed this
approach.

The FY 2000 Review also revealed some human capital vulnerabilities such as limited
promotion availability, a higher rate of employee turnover compared to other small

                                            10
                                FOR OFFICIAL USE ONLY

agencies, the lack of an agency-wide management perspective and different component
focuses on employee development. The Review also affirmed that the grade levels of most
of the professional staff were at least one grade lower than their counterparts in other
small, quasi judicial agencies. The Review also revealed that management invested more
in its professional staff than its administrative staff even though most of the latter have
been with the Agency for a significant amount of time. The Review revealed that the
FLRA did not conduct and use position management reviews or statistical workload
justifications as a management tool for the classification and assignment of position.

The FY 2000 Review revealed that the FLRA=s Upward Mobility Program which was
active in the early 90's had dwindled down to almost a Apaper exercise.@ The program was
restructured in l999 but there was still little flexibility in dedicating specific positions for
support staff functions. Professional (attorney/labor relations specialist) upward
mobility positions were considered different and referred to as A built in career ladders.@
The FY 2000 Review also included a close look at the FLRA=s Tier I and II Development
Program which was aligned with FLRA=s strategic planning, This program was supposed
to ultimately have a specific tier for professional and senior executive service leadership
development. Guaranteed promotions are not part of this program and this,
inappropriately, discouraged some employees from participating.

During1999 and 2000, the FLRA Human Resources Division conducted several
administrative support training sessions as well as bag lunch seminars at the FLRA
Headquarters. In spite of ample advertisement and employee notification, these training
sessions were not well attended. Other areas needing management attention, surfaced
through the FY 2000 Review included:

                     a. Not all employees had Individual Development Plans;

                     b. Some employees were reluctant to use Equal Employment
                     Opportunity Counseling and grievance procedures because they felt
                     their confidentiality was compromised at the onset;

                     c. The morale of administrative program minority employees was
                     affected by the lack of advancement opportunities;
                     d. The majority of human capital investments and achievements
                     pertained to the professional legal staffs of the Agency; and

                     e. The lack of succession planning could negatively affect the Agency.


                                              11
                              FOR OFFICIAL USE ONLY


Objective: An FLRA Inspector General internal review of the FY 2000 Corrective
Actions caused some concern. Although most of the FY 2000 corrective actions were
reported implemented during FY 2000 or FY 2001, the assessment of progress by the
FLRA Inspector General indicated that many of the initial problems still exist or have
resurfaced. Therefore, a follow-up assessment evaluating FLRA=s human capital progress
was conducted beginning on October 15, 2002 and was completed on April 15, 2003.

Methodology: This current assessment includes a follow-up of implemented corrective
actions from the FLRA Inspector General FY 2000 Internal Review of Human Capital
which was proactively done to assess FLRA=s position when this topic was first introduced
by the Office of Personnel Management. It also involved a survey of FLRA management=s
knowledge of and involvement in this important management area which has become one
of the main government-wide standards of the President=s Management Agenda.
Interviews were held with the Executive Director and Director, Human Resources
Division as well as randomly selected managers and employees to include their
perspectives of FLRA progress in the human capital area. Interviews were also conducted
with FLRA employees throughout the Agency to assess their perspectives of progress and
needs in the human capital area. Statistical data, which was initiated as a result of a FY
2000 FLRA Inspector General recommendation was reviewed and analyzed as part of this
assessment.

Introduction:

Both the Federal government=s workforce and workplaces are changing. These changes
are primarily driven by the current President=s Management Agenda and a previous
Administration=s vision that the 21st century workforce must be highly skilled, adequately
compensated and appropriately assigned, and that the work environment must be safe
and productive. To reach this goal, Federal management must focus on and recognize its
employees as an asset and a key step for this transformation.

The current Administration has strengthened the focus on Federal human capital
investments by making it one of the five essential government wide standards of the
President=s Management Agenda. The General Service Administrative Office has issued a
framework for Human Capital assessments which has been used as a baseline for the
FLRA=s Inspector General follow-up assessment. The framework for this assessment
involves the overarching reality that in order to be effective, all levels of management
must provide sustained interest and commitment to human capital management with the


                                           12
                             FOR OFFICIAL USE ONLY

understanding that it requires continuing reassessments and the elimination of
perspective stereotyping. Also, management must realize that their successful
approaches today may need to be changed to ensure continuing effectiveness and the
capacity to provide a shared vision between the employer and employees. Successful
FLRA human capital should routinely address:

      1. The level of incorporation of human capital in the Agency=s mission
      accomplishment, strategic planning and core values.

      2. Appropriate organizational alignment and the integration of human capital
      strategies with the Agency=s core business processes.

      3. A committed Leadership Team which provides reasonable continuity through
      succession planning.

      4. Recruiting, hiring, developing and retaining employees with the appropriate
      skills (including interpersonal) for mission accomplishment.

      5. A work performance culture that empowers and motivates employees while
      ensuring accountability and fairness in the workplace.

Human Capital Standards

On November 22, 2002, the Office of Personnel Management (OPM) issued new Human
Capital Standards which will replace the previous Human Capital standards in the
President=s Management Agenda. These new standards were formulated by OPM and the
Government Accounting Office and Office of Management and Budget. They are based on
creating a more effective Government by attracting, developing and retaining quality
employees from diversified backgrounds and continually ensuring that Government
employees perform at high levels. These new standards are:

I. Strategic Alignment:
Agency human capital strategy is aligned with mission, goals and organizational
objectives and integrated into its strategic plans, performance plans and budgets.
II. Workforce Planning and Deployment:
Agency is citizen centered, delayered and mission focused and leverages e-Government
and competitive sourcing.

III. Leadership and Knowledge Management:

                                          13
                             FOR OFFICIAL USE ONLY

Agency leaders and managers effectively manage people, ensure continuity of leadership
and sustain a learning environment that drives continuous improvement in performance.

IV. Results Oriented Results-Oriented Performance Culture:
The Agency has a diverse, results-oriented, high performance workforce and has a
performance management system that effectively differentiates between high and low
performance and links individual/team and unit performance to organizational goals and
desired results.

V. Talent:
The Agency has closed most mission critical skills, knowledge and contemporary gaps and
deficiencies, and has made meaningful progress toward closing all.

VI. Accountability:
The Agency=s human capital decisions are guided by a data driven results oriented
planning and accountability system.

Based on this follow-up review, the following comments pertain to the Inspector General=s
Assessment of the current FLRA status related to the new standards.

I. Strategic Alignment:
The current FLRA Strategic Plan has two goals which specifically relate to the FLRA=s
adjudicatory mission. The FLRA has a general human resource strategic goal in its
strategic plan which is integrated with component action plans and individual employee
work plans. The Human Resource strategic goal does align, for the most part, with the
FLRA mission and organizational goals. Component action plans integrate with the
Strategic Plans and Employee Work Plans, if they exist, and similarly integrate into
component action plans. However, not all FLRA employees have work plans. New
employees are supposed to receive their position descriptions and workplans within 30
days of their employment. There were several employees in the Authority, however, who
had never received a workplan from their managers and a few employees who have not
received relevant position descriptions.

Basic human capital strategies are now being aligned and integrated with performance
planning and budget submission/allocations by the majority of FLRA managers. The
Office of the General Counsel previously had been the innovator of the FLRA=s human
capital focus, however, now, all three FLRA components are addressing this standard.
The current Federal and FLRA focus on human capital has provided a foundation for
management to support human capital initiatives.

II. Workforce Planning and Deployment:


                                          14
                              FOR OFFICIAL USE ONLY

Because of the nature of its adjudicatory mission, the FLRA has always considered
customer service important and has focused on its mission to process labor management
disputes in an appropriate and timely way. During FY 2001 and FY 2002, the number of
cases filed with the FLRA has increased but timely processing has decreased. Some of the
reasons for the effect on timeliness include personnel turnover, inability to fill vacancies
in a timely manner because of budget restrictions, the absence of a General Counsel and
the previous lack of a permanent Director of the Case Control Office (recently filled.)
While the last decade downsizing did delayer the FLRA, there still exist an excessive
amount of SES and GS-15, who are in management positions, and, perhaps not enough
working level employees. A recent Inspector General Management Work Analysis
identified managerial positions which could be consolidated or eliminated once they were
vacated. Management has considered deployment of personnel several times in the past
to accommodate workload but has not adopted this procedure. The FLRA currently has
an inactive deployment program for its personnel. Current leadership is focused on
workforce planning. Succession planning, work plans needs to be a part of this.

III. Leadership and Knowledge Management:
Agency leaders and managers effectively manage people, ensure continuity of leadership
and sustain a learning environment that drives continuous improvement in performance.

The majority of the FLRA=s quarter million budget is spent on the pay, development and
benefits for its employees. The FLRA officially allocates $500.00 per employee for
training. While management supports a learning environment in the FLRA, the reality
that most training courses exceed $500.00 puts a restriction on learning and
development of FLRA employees.

The fact that FLRA has not yet instituted a succession planning system along with the
reality that a significant amount of senior managers are close to their retirement and that
there has been a significant turnover of legal as well as administrative employees may
have a significant effect on FLRA=s productivity during the next few years. Although the
FLRA has implemented a Tier I and TierII Leadership Program, there has been no activity
in these programs over the last year. There are also deficiencies in contemporary
management knowledge (i.e. respect for leadership and accountability, professional
behavior, interactive communication, etc.) and federal program knowledge (i.e. security,
procurement, use of government credit cards, etc.). Related training should be a priority
for both tenured and new managers. Taking into consideration it=s small size, the FLRA
has a diversified workforce , however it needs to focus on increasing the hiring of qualified
Veterans and minorities in its higher graded positions.

IV. Results Oriented Results-Oriented Performance Culture:
Although the FLRA=s Strategic Plan is results oriented, there are senior management
concerns over the untimeliness of some case processing, some untimeliness of both
internal and external responses for administrative information, untimeliness of hiring
employees and some untimeliness of technology and security development. The current
pass/fail performance system of the FLRA does not provide management or employees

                                            15
                              FOR OFFICIAL USE ONLY

with a sufficiently detailed performance evaluation/ appraisal system which should focus
on results and drive performance improvement.

The FLRA has a diverse, results-oriented, and basically hard working workforce and has a
performance management system that differentiates between high and low performance,
but does not define intermediate levels. The performance management system does link
individual/team and unit performance to organizational goals and defined results.

V. Talent:
The FLRA has employed legal and labor management personnel with sufficient skills to
meet its technical mission. Some of these employees are also in management/supervisory
positions and do not have sufficient management/supervisory skills and/or training.
There has also been a lack of sufficient focus on contemporary Federal program skills of
some employees working in the administrative subcomponents (Human Resources,
Security, Computer Technology.) This deficiency needs to be addressed either by training
and mentoring or future hiring as well as Agency-wide briefing of current administrative
program requirements (ASecurity, Health and Safety, Federal Management and Employee
Responsibilities and Rights, Use of Government Credit Cards, etc.) Managers need to
become aware of behavioral science and develop interpersonal skills and ensure that their
work is assigned in a manner that takes advantage of an employee=s key capabilities and
skills rather than just focusing on their vulnerabilities. Agency talent can be maximized
by increasing interactive communication between management and employees which
does exist in most of the component and sub-component levels and by providing
incentives to retain good employees and hiring skilled new employees/managers who
have had experience working in a small agency and are committed to serve their
customers and senior leaders. The FLRA needs to focus on the future as well as the
present, and identify the skills and experience for future hires.

VI. Accountability:
Current FLRA leadership has placed an emphasis on management accountability and
results oriented planning, however, some FLRA managers have had difficulty
transitioning to the new FLRA environment. This resistance to transitioning, in and of
itself, is a human capital issue, and is also affecting FLRA employees because they either
observe, are told about, or are victims of the tension. The smallness and unique mission
of the FLRA has served both as a cover-up and defense mechanism for previous non-
compliance with several Federal program and operational requirements, including the
Fair Act, Government Information Security Act, and the Government Performance
Results Act. Rather than functioning operationally as a single entity, up until FY 2000,
FLRA functioned administratively as three separate agencies rather than as one. This has
now changed and current leadership is promoting organizational unity, management
accountability, and program and operational compliance with Federal requirements. Not
all of FLRA=s management (senior executives as well as line managers) have been able to
successfully transition to the new and accountable environment.

For many years, the FLRA=s Authority Members= Offices, Case Control Office, Office of

                                           16
                              FOR OFFICIAL USE ONLY

Administrative Law Judges and Office of the Solicitor, Office of General Counsel and
Federal Services Impasse Panel have been accumulating case processing data to address
its strategic planning process and quantitative strategic goals. The fact that the Human
Resource Division and Information Resource Management had insufficient and/or no
data supporting their work and strategic goals (which were quantitative) was brought up
in several FY1998-2002 Inspector General oversight activities. Data is now being kept
(past two years) by FLRA=s administrative program offices and technology division and
should be actively used to analyze and provide human capital and administrative insight
as well as the performance of FLRA=s strategic goals.

Major Human Capital Statistics
As part of this review, the Inspector General requested specific statistics relating to
human capital which were provided by the Human Resource Division and/or the Budget
and Finance Division. The following statements are based on this statistical analysis. The
statistics are provided as an attachment.

FLRA Human Resources
In FY 01, the FLRA had a total of 208 employees (includes, senior executives, law judges,
presidential employees and general schedule employees.) Student and temporary hires
totaled 5 (4 of whom were students) in FY 01 and 4 (3 of whom were students in) FY
2002. During both of these fiscal years, the FLRA had two contractor staff members in
the Information Resource Management Division. One is a Help Desk Senior Technician
and the other is an Oracle Software developer.

The current Human Resource Division statistics do not provide sufficient information
regarding current employee skills and potential skills needed for the future. Office of the
General Counsel does retain Individual Development Plans for its employees who have
not reached their performance level and has defined the necessary skills for its employees
but this has not been done by the other FLRA components.

Human Resource Expenditures
3/4 of FLRA=s annual appropriation is spent on human resources. In FY 01, the Authority
spent 93% of its fiscal year obligations on salaries and benefits; The Office of the General
Counsel spent 88%and the Federal Services Impasse Panel spent 89% of its fiscal year
obligation on salaries and benefits. 2% of the Central Services fund was also spent on
human resources. The same holds true for FY 2002 where the Authority spent 93%, the
Office of the General Counsel spent 90%, the Federal Services Impasse Panel spent 90%
and 2% of the Central Services Fund allocations were spent on human resources.
Promotions
During FY 2001, there were 20 employee promotions in the Authority costing $159,697.,
34 promotions in the Office of the General Counsel costing $213,932 and 1 promotion in
the Federal Services Impasse Panel costing $8238. During FY 2002. The Authority had
13 promotions totaling $84,313., 22 promotions in the Office of the General Counsel
totaling $145,854 and no promotions in the Federal Services Impasse Panel. These


                                            17
                              FOR OFFICIAL USE ONLY

statistics include SES level increases and movement from GS/GM to SES which are
considered conversions to new appointments.

Within Grade Increases
During FY 2001, there were 26 Authority employees who received within grade increases
totaling $51, 017., 35 Office of the General Counsel employees who received within grade
increases totaling $64,943., and 3 within grade increases in the Federal Services Impasse
Panel totaling $5496. During FY 2002, 26 Authority employees received within grade
increases totaling $53,430., 33 Office of the General Counsel within grade increases
totaling $71, 057. and 1 Federal Services Impasse Panel within grade increase costing
$2207. These statistics do not include SES level increases because SES increases were
included in the promotion section above.

Awards
In FY 2001, 181 FLRA general schedule employees received performance awards as well
as 14 senior executives. 30 Special Act awards were also processed. The Authority
dedicated $75,364. to the general schedule employee awards, the Office of the General
Counsel used $194,109. for general schedule employee awards and $28, 000. for senior
executive awards. Both the Authority and the Federal Services Impasse Panel used
$67,600. from the Central Services Fund for senior executive awards during FY 2001.

In FY 2002, 233 performance awards, including 30 Special Act Awards were issued to
general schedule employees. All FLRA components used a total of $87,657. from the
Central Services Fund for senior executive awards. The Authority used $98,424. of its
funding to provide general schedule employees performance awards. The Office of the
General Counsel used $142,875. of its allocations for general schedule employee awards
and the Federal Services Impasse Panel used $7,950.

Training
The total cost of FLRA employee training in FY 2001 was $226,070. The Authority spent
$102,393., the Office of the General Counsel spent $71, 552., the Federal Services Impasse
Panel spent $4, 210. $226,070 was spent from the Central Services Fund.
During FY 2002, the total amount spent on training was $190, 582. The Authority spent
$88,921. on employee training, the Office of the General Counsel spent $62,111., and the
Federal Services Panel spent $2, 805. $36,745 was spent on training from the Central
Services Fund.


The Inspector General review of documented FY 2001-2002 training revealed that all
training was related to Federal and labor management issues. The review revealed that
one FLRA employee was receiving funding for college education courses which could be
related to FLRA=s mission. The fact that the FLRA does not have policy relating to paying
or reimbursing college expenditures and that no other FLRA employee was aware of and

                                           18
                             FOR OFFICIAL USE ONLY

provided this opportunity makes this action unfair. The majority of training for FLRA
employees during FY 2001 and FY 2002 exceeded $500.00 per per person. In fact,
during FY 2002, $22,580.00 was spent for training for one employee. This information is
an attachment to this report.

Leadership Training Program
The FLRA has created three leadership training programs. The Tier I Program was
designed for entry level through GS 12/13 to help employees develop professional,
organizational and technical competencies. There is no documentation indicating that
this program was ever implemented.

The Tier II Program was designed to provide high potential GS 13 and 14 employees with
leadership skills that would make them candidates for positions of leadership within the
Agency (team leader, supervisory or managerial positions.) Participants are required to
complete this program in three years. This program was implemented and was active in
FY 2001 and FY2002. Five FLRA employees from the FY 19 99-2001 program completed
the program. So far only 1 employee from the FY2000- 20002 program has completed
the requirements. There are currently 3 employees participating in the FY 2001-2003
program.

The Tier III program was designed for supervisors at the GS-14 through senior executive
level. FLRA=s Executive Resources Board developed the training needs to enhance the
skills and provide succession planning for on board senior executives. During FY 2001
and 2002, all newly selected supervisors received leadership training.

The Office of General Counsel has also created a Leadership Program designed to provide
OGC GS-14 employees appropriate technical, managerial and leadership qualities. During
FY 2001, all OGC GS-14s and 5 Authority/FSIP employees participated in a 2 day training
session related to this program. This program was not provided to employees because of
budget constraints and the pending appointment of a General Counsel during FY 2003.
Three OGC employees attended the Harvard Law School Harvard Negotiation Workshop
in FY 2001 and two OGC employees attended the same course in FY 2002. Also in FY
2002, three OGC employees attended the Federal Executive Board Leadership Institute
and one attended the Federal Executive Institute. OGC employees also attended various
other training such as ADR training, The Art of Effective Facilitation, Conflict
Management, EEO training, employment law and representation case issues, mediation
and unlawful discrimination training.

A Tier III Program consisting of two phased five year programs with an emphasis on self
motivation and managerial skills has also been planned and intended for supervisors GS-
14 through the senior executive levels to either develop or enhance supervisory and/or
executive leadership skills for current or potential senior executives. This program has
not been implemented.

Attrition Rate

                                          19
                              FOR OFFICIAL USE ONLY

The FLRA attrition rate for FY 2001 was 38 employees (includes 6 retirements), and 20
employees (including 6 retirement) for FY o2. Excluding those employees who retired,
the FLRA=s attrition rate over the last two years has been approximately 10% which is
considered normal for a Federal Government Agency. However, because the FLRA is
such small agency, this attrition rate definitely impacts the productivity of the Agency. It
is noteworthy to note that eight of the current senior executives and administrative law
judges are eligible to retire. The current amount of employees eligible for retirement in
FY 2003 and FY 2004 are three and four respectively.

As a result of an FLRA Inspector General recommendation, the Human Resource Division
began distributing an exit interview questionnaire in April 2000, to departing employees
for the primary purpose of capturing the reasons employees leave the Agency and
assessing their general satisfaction with their FLRA work experience. The first annual
report covered the period of April 1, 2000 through May 19, 2001. Although 43 employees
separated during that period (25 Authority, 16 OGC and 2 FSIP,) only 9 people returned
the exit questionnaire. No conclusions could be rendered by the Human Resource
Division based on this small amount of exit questionnaires.

In August 2001, Director of Human Resources issued a memorandum to all FLRA
managers and supervisors, requesting that they provide the Human Resource Division
assistance in the exit interview questionnaire process. Specifically, FLRA Human
Resource Division and Office of the General Counsel Office managers were asked to
ensure that the exit questionnaire be provided to each separating employee along with a
stamp- FLRA addressed envelope for return to the Human Resource Division;
Supervisors, Office of the General Counsel Office Managers, and the Human Resource
Division staff should encourage employees to complete and submit the exit interview
questionnaire at the same time they submit the required Clearance Checklist; and that the
Human Resource Division send a follow-up questionnaire to all employees one month
after their separation, requesting the questionnaire if they have not submitted it within
that time frame.

A second exit survey summary covering employees leaving from May 20, 2001 through
May 19, 2002 was prepared in June 2002. This summary was not released to
management because only eight out of 34 employees leaving the Agency responded to the
questionnaire.

The data from those employees who submitted the exit interview questionnaires reflected
various reasons for leaving including, more pay, more growth opportunity, more personal
time and different career interest. FY 2001 and FY 2002 employees who left the FLRA
did not provide specific negative comments about their work experience, training,
resources and management.

Hiring Personnel
During FY 2001, the FLRA posted 54 announcements and hired 15 employees. In FY
2002, 23 vacancies were advertised and 8 of these were filled. During FY 2oo2, more

                                            20
                              FOR OFFICIAL USE ONLY

focus was placed on upward mobility positions. The Office of the Inspector General
created and filled an upward mobility position and the CCO created 2 upward mobility
positions.

Supervisory Ratios
In both FY 2001 and FY02, the FLRA had 36 supervisory positions (includes vacant as
well as encumbered positions. Specifically, the supervisory/employee ratios for the FLRA
 subcomponents are not standard and fall anywhere between one supervisory position for
one employee (Office of he Inspector General) to one supervisory position for ten
employees (Information Resource Division. The Office of the General Counsel has three
supervisory positions for eleven employees. Generally, the Regional Offices have two
supervisory positions for fourteen or fifteen employees. The Authority Members= Offices
range from two supervisory positions for eight or ten employees, the Office of the
Administrative Law Judges has one supervisory position for eight employees, the Office of
Case Control has one supervisor for four employees and the Office of the Solicitor has o
supervisory positions for seven employees.

Performance Awards
During FY 2001, the FLRA spent $279,393. on performance awards for general schedule
employees and $95,600. for senior executives. For FY 2002, $249, 250. was spent for
general schedule employee performance awards and $87,657. was spent on senior
executive performance awards.

Grievances
FY 2001
In July, 2001, a grievance was filed alleging failure to provide adequate notice on the
nature and scope of work related to the installation of new lab tops in two regional offices
which denied the U.A.E. the opportunity to negociate impact and implementation issues.
This grievance was denied because FLRA management and the U.A.E. had previously
worked together on the same issues at another regional office.

FY 2002
In April 2002, a Step 1 grievance was filed concerning a performance progress review. In
December 2002, the deciding official responded that the grievance was not sustained even
though the wording in the progress review was changed in consideration of the employees
input. Another FY 2002 complaint pertained t0 an allegation of non-compliance with a
settlement agreement reached in FY 2001 as a result of 2 complaints filed by one
individual against the FLRA. FLRA had previously issued a response denying the
allegation. The complainant subsequently appealed the issue to the EEOC.
                                    Findings of Fact

Since human capital pertains to all employees, both managers and working level
employees were interviewed. The following are validated findings of fact.



                                            21
                              FOR OFFICIAL USE ONLY

1. In FY 2000, the FLRA Inspector General Assessment of FLRA=s Human
Capital Focus revealed that the FLRA was well on its way in supporting
human capital. Progress in this area has not continued sufficiently to
support the same status currently.
In FY 2000, the FLRA was ahead of many Federal agencies in its program
implementations related to human capital. The fact that this program became part of the
President=s Management Agenda generated the focus of all Federal agencies toward
human capital. Although the FLRA has implemented many programs which pertain to
human capital, most of this implementation remains Aon paper@ and is not completely
institutionalized into the Agency=s operations. Managers acknowledged that over the last
several years, FLRA has done a better job of providing services and implementing human
capital programs such as Flexiplace, and Alternative Week Schedules, Upward Mobility
Program and Tier I and II programs which enhanced employee satisfaction and
commitment. There were several managers as well as employees who stated that these
programs had to be expanded to provide more employees with these options. Others
suggested that senior management should consider implementing programs which paid
off a percentage of college tuition, assisted in financing graduate school courses and that
part time employment and job sharing should be explored and implemented to provide
other incentives for employee retention.

2. Most FLRA managers/supervisors understand the concept of human
capital and it=s focus on employees being considered an asset rather than a
cost.
With the exception of two, all FLRA managers interviewed understood the general
concept of human capital and its importance. Several line managers stated that specific
human capital training would be beneficial and help managers put the concept into
practice. Only one manager stated that there was little evidence of human capital
fundamentals being used to achieve the FLRA mission. Several managers commented
that the FLRA=s Strategic Plan and performance system is not oriented to human capital
standards and that human capital, teamwork and more management communication was
needed for immediate improvement.

3. Most senior FLRA managers/supervisors understood the importance of
Human Capital and its inclusion in the President=s Management Agenda. Line
managers were not as well informed on this subject.
Most senior managers, who were interviewed, understood the reasoning behind the
President=s Management Agenda as a result of attending a related conference in FY 2002.
Line managers were not as knowledgeable as their senior managers. A A collegial,
cohesive and comprehensive@ workforce strategy needs to be developed and oriented
toward human capital objectives to support the FLRA=s mission. A majority of FLRA=s
workforce interviewed stated that they would like more information (briefing and/or
policy) on the President=s Management Agenda, human capital, strategic planning,
diversity, EEO and the retention of qualified personnel.


                                            22
                              FOR OFFICIAL USE ONLY


4. Performance management needs to focus more on teamwork , results and
accountability. A significant number of managers felt that the current FLRA
pass/fail system is not sufficient for properly evaluating employees
performance.
Virtually all FLRA managers considered their employees as a vital asset to accomplishing
the FLRA=s mission in an effective and efficient way. Most commented that the current
performance management system is focused on individual, rather than team performance
 ( more operative in the legal subcomponents than the administrative subcomponents)
and that the current APass/Fail@ performance evaluation system should be revisited by
management because it does not appropriately address performance.

5. FLRA does not currently have a workforce planning and succession
strategy which would promote continuity and lessen performance gaps
caused by personnel turnover .
Component and Regional managers were not aware of any FLRA workforce planning
strategy and felt that such planning was necessary and would benefit the Agency. The
majority of FLRA managers felt it was very important for the Agency to plan for the future
and improve its current communication processes.

6. The FLRA does not have specific policy related to human capital.
While the FLRA is not required to have a Human Capital Officer, this responsibility could
be assigned to a senior manager who is knowledgeable or trained in current human
capital initiatives to help the Agency focus appropriately on human capital issues.
Irregardless of such an appointment, Agency level briefings, instructions and/or policies
and procedures that addressed a work environment which encourages work excellence
and human capital initiatives has not occurred and would be beneficial for all levels of
employees . Morale issues are pervasive throughout the Agency and are effecting
performance and attitudes and need more senior management attention.

7. The FLRA has not yet successfully integrated political and career
leadership into a cohesive leadership team.
Although current leadership is focusing on consolidating the three major components and
transitioning employees to consider the FLRA as one agency instead of three, it is
important to establish a strong working relationship among senior leadership Irregardless
of their political or competitive source of appointment. The fact that such a relationship
does not exist is noted by a significant amount of employees and is negatively affecting
the work environment morale. Most employees interviewed stated that their supervisors
were working managers and very knowledgeable, but the majority of them focused
predominantly on their own projects and not on their employees. Several employees
commented that there was too much political dissension which has effected employee
commitment and productivity. Most working level employees interviewed stated that
their own subcomponent management encouraged teamwork, innovation and created a

                                           23
                              FOR OFFICIAL USE ONLY

participative environment, but they did not feel that this environment was pervasive
throughout the Agency.

8. FLRA has a dual challenge to try to retain its tenured and skilled
employees as well as prepare for the reality that the current private sector as
well as Federal work environment will encourage more employee turnover.
The majority of FLRA managers are appropriately focused on developing their employees=
competencies through on the job and external training. More job flexibility, upward
mobility positions and detailing of employees could improve employee retention.
Managers of legal staffs felt that attorneys with experience should be hired at the GS-11
level and the journeyman level should be GS-14 which are the levels used in other Federal
adjudicatory agencies.

A majority of interviewed employees stated they felt they were micromanaged and never
asked for suggestions regarding operational or program procedures. (This is an opposite
perspective from management who majoritively stated that they sought input from their
employees.) Succession planning for the future at the FLRA is minimal in spite of the
continuing turnover of personnel.

9. FLRA managers and employees are not sufficiently knowledgeable of
applicable Federal legislation and program requirements.
The majority of FLRA managers verified that they were not provided sufficient or enough
timely management information and/or authority to be able to respond to their
employees= questions. Several line managers stated that they need a clear understanding
of the President=s Management AAgenda, more information on available resources, and
the specific objectives of current leadership (Presidential appointees/Senior Executives.)

10. The FLRA=s Strategic Plan has not been updated to focus on the
President=s Management Agenda government wide standards.
Several managers commented on the obsoleteness of the FLRA=s Strategic Plan. These
managers all felt that the original plan focused to heavily on timelines rather than quality
of service. One manager stated that the FLRA=s mission and strategic plan should be
revisited because it was formulated during a Democratic Administration and it needed to
be restructured to include the standards of the current Republican administration. There
were several managers who were not sure what the Agency=s current strategic vision and
plan were. Most managers felt that the FLRA needed to focus on the quality of work
(qualitative) rather than on numeric goals (quantitave) even though numeric goals can be
easily measured.
11. The FLRA does not currently conduct regular Agency-wide management
meetings.
Currently, the FLRA does not hold regularly scheduled Agency-wide management
meetings. Most FLRA component and line managers communicate and interface with
their employees on a regular basis. However, many cannot communicate Agency-wide
information to their employees because they, themselves, are not informed. All

                                            24
                               FOR OFFICIAL USE ONLY

component managers stated they interact and communicate with their employees and
encouraged and valued employee feedback. Employees did not affirm this. Some
managers actually used their employees to brainstorm technical, administrative and/or
management issues. Some have weekly scheduled staff meetings, while others have
meetings as required. Establishing communicative and interactive Agency-wide meetings
would provide a mechanism for senior management to provide direction and managers to
share their work progress. Such an initiative would enhance management knowledge and
promote more of an Agency wide focus. It would also encourage more component
interaction.

12. Regional Managers management authority has increased under current
leadership.
While current FLRA leadership has strengthened the management responsibilities of
FLRA Regional Directors, several of the Regional managers commented that there was
too much administrative work for their current staffing level; and that the capabilities of
the Regional Directors to manage their regions effectively were underestimated.

13. FLRA=s Compensation System for entry level and journeyman level legal
employees is lower than other similar Federal adjudicatory agencies.
FLRA=s compensation system for working level attorneys is not aligned with those systems
of most other Federal Agencies. Although money is not considered the major motivating
incentive for most Federal employees, both FLRA managers and legal working level
employees brought this issue up. Most other Federal agencies hire entry level attorneys at
the GS-11 level while FLRA usually hires at the GS-9 level. The journeyman level for
attorneys in other Federal adjudicatory agencies is at the GS-14 level, while FLRA
attorneys are at the GS-13 level. With the exception of entry level attorneys (GS-9) and
journeyman level (GS-13) most managers felt the FLRA compensation system was
parallel to most other Federal agencies. The current FLRA attorney hiring level was not,
however, considered sufficient to obtain and/or retain high quality performers since other
federal and private sector positions payed more. Several managers stated they would like
more flexibility to offer higher grades and promotions.

14. The FLRA Award System does not have standards or controls to ensure
that employees who perform at an exceptional level are appropriately
recognized.
The FLRA=s award system needs to be assessed by management and improved so that it
provides standards which focus on the truly good and dedicated employees who
contribute beyond their work plans and not just satisfy the work plans. It is important to
note that the FLRA=s Quarterly Award System which focuses on employees is a positive
part of the current system. However, not all incentives and recognition need to cost
money. Verbal acknowledgment, written acknowledgment, special conference training,
time off and Agency-wide recognition are some alternatives which can be incorporated
into the FLRA=s system.


                                            25
                              FOR OFFICIAL USE ONLY

Some employees stated that their position classification and actual work structure were
not accurate and they were not appropriately appraised for the actual work they
performed. Several employees commented that there was a need for more employee
incentives such as more training, time off awards, promotions, to increase employee
motivation. Over the past few years, FLRA management has issued performance awards
to a broad range of its employees. While management feels they are using the
performance awards in a fair and productive manner, a number of FLRA employees
stated that the way the performance award system is administrated does not truly
differentiate between exceptional and normal employees and is focused on rewarding
management vice employees.

15. The FLRA=s focus on employee training and development is not
sufficiently funded but generally focuses on contemporary needs.
Although the official allocation of $500.00 per employee is not realistic (most external
training runs from $600.00 to $900.00 plus travel costs depending on the level), the
FLRA does support the need to train and develop its employees. Virtually all managers
stated that FLRA=s focus on training and employee development was adequate. Several
employees had the incorrect perception that training should equate to promotions rather
than knowledge and skills to better perform their current job. Several employees
suggested that more effort be made to provide employees the opportunity to perform at
higher level positions such as when managers were on leave or when vacancies occurred.

Several working level administrative program personnel stated that they did not receive
on the job training from their managers because of the manager=s extensive workload and,
in some instances, because the lack of in depth of Federal program knowledge of their
manager. Several employees and managers stated that they needed more training in
technology and security. Less than half of the employees interviewed stated that they
have received sufficient information on Administrative programs such as security, health
care, EEO, thrift savings, time and attendance, personnel policy, technology and work
requirements.

Several employees stated that training is insufficient for administrative personnel.
Professional personnel are generally trained within their area of responsibility.
Administrative personnel did not feel they were adequately trained for all of their
responsibilities.

While the Tier II Leadership Program appeared to be a beneficial enhancements for
employees, positive results have not yet been seen. Several employees who participated in
this program have left the FLRA for other Federal or private sector jobs. The majority of
lower graded employees interviewed felt that the FLRA Upward Mobility Program needs
more positions, more funding and more management support. Several participants stated
that they thought the program would provide the basis for promotions but it did not.

Two individuals who have filed Equal Employment Opportunity complaints stated that
the administration of this program did not support confidentiality and because of this,

                                            26
                              FOR OFFICIAL USE ONLY

other employees who have EEO issues were very reluctant to file them.

16. Current communication/interaction among and, in some cases, within
the FLRA components does not support the FLRA=s Agency-wide concept.
Communication and interface are essential requirements for successful and timely
actions. Over the last decade, these two human capital actions have diminished in many
organizations due to many causes including increased workload and diminished staffing,
computer technology, confidential or sensitive issues, management and employee
behavioral styles and excessive management control. Over the last few years,
management meetings, internal and external program and operational briefings, off-site
meetings, employee orientation s and even internal discussions of current issues and/or
events have diminished. Previous Human Resources and Office of the Executive Director
attempts to conduct management meetings and/or program or operational briefings have
not been successful because of poor attendance.

All FLRA managers interviewed acknowledged the importance of communication between
all components and between management and the workforce in order to ensure that all
Agency employees are provided with the same information. One senior manager stated
he was almost completely isolated from other management officials. Managers
acknowledged that over the last several years, FLRA has done a better job of providing
services and implementing human capital programs such as Flexiplace, and Alternative
Week Schedules which enhanced employee satisfaction and commitment. There were
several manager who stated that these programs had to be expanded to provide more
employees with these options. Others suggested that senior management should consider
implementing programs which paid off a percentage of college tuition, assisted in
financing graduate school courses and that part time employment and job sharing should
be explored and implemented to provide other incentives for employee retention.

This follow-up revealed that there are still some subcomponent managers who have not
issued work plans or individual development plans to their employees. Some line
managers were not knowledgeable about human capital or the government wide
standards of the President=s Management Agenda. Some managers as well as employees
did not have sufficient knowledge of security, procurement, health and safety,
requirements for the use of Government credit cards or contemporary, communication,
bio-psychological and behavioral elements. Several tenured Authority senior managers
stated that FLRA needed to do a better job of training its managers and supervisors at all
levels. Office of the General Counsel managers felt they were adequately trained but that
the Agency should focus on leadership training for all GS-14's to help qualify them for
management positions. The need for succession planning was supported by virtually all
managers, especially for leadership roles. Some managers felt that until policy was created
for human capital, Agency individuals who intended to retire should document their
positions prior to retiring. Some felt that specific employees should be trained to fulfill
the position when it became vacated even if it were only in an AActing@ capacity. Also both
managers and employees need to focus more on Agency wide team work Although
several committees were formulated during the past year, most of the management


                                           27
                             FOR OFFICIAL USE ONLY

members focused on their own needs vice the Agency=s needs.

17. The FLRA Human Resources Division needs to improve the Agency=s
hiring process, provide FLRA managers and employees with sufficient and
timely information on issues/programs that effect them and focus on
contemporary human capital program requirements.
While a significant deterrent to the FLRA Human Resource Division has been the lack of a
tenured Director and a significant amount of employee turnover over the last two years,
those few remaining employees have tried hard to keep the program running efficiently
but can only do so much. Several managers have Ataken over@ some of the Human
Resource Divisions responsibilities (such as position description writing, informing
employees of contemporary employee programs and issues) in order to keep productive
and address the Agency=s mission requirements. Once the Human Resources
subcomponent is stabilized, the FLRA needs to address hiring procedures, improve the
formulation of position descriptions, require work plans for all working level employees
and speed up both processes.




                                          28
                              FOR OFFICIAL USE ONLY

Inspector General Comments

The days of a bureaucratic Government environment are over. The Government is
currently on the verge of a significant transformation which will affect what Federal
agencies provide and the way they do it. Most Federal agencies have become Alearning
organizations@ which focus on customer satisfaction, require versatile skills, networking,
innovation and creativity, and a shared vision of the Agency=s mission. Successful
organizations have managers and employees who understand they must often change
their culture in order to transform themselves. This change for the FLRA has started with
top leadership but is being resisted by a significant number of tenured employees.

Senior executives need to align their performance goals with the Agency=s mission in a
results oriented perspective and understand that they are accountable. All managers
must integrate their contributions with the top level vision and develop new thinking
which will hopefully eventually shape new behavior. Managers need to understand that
current leadership is building a foundation for change and improvement in operations
and that the structure, systems, staffing and strategies of previous years are no longer
applicable to the current environment. Senior Executives need to ensure that their goals
and individual performance cascade within FLRA=s various organization levels and
support current Government priorities. The bottom line is that even though change must
start with top leadership, line management and employees must support it for it to work .

The FLRA=s current line management and employee resistance to current leadership
changes and its emphasis on accountability, flexibility and unity as one organization, has
definitely affected the FLRA=s work and cultural environment, and has lessened employee
self motivation and commitments to the Agency. There is currently too much resistence
by line management to do things differently and to be accountable for their actions. This
management resistance to change has been recognized by a majority of FLRA working
level employees. Some employees have also acquired this same attitude because their
supervisors have verbalized their negative opinions concerning the current environment
which has become more results oriented, less hierarchical and more integrated.1/

A significant amount of FLRA employees currently lack a contemporary visionary

1/ The Federal Services Impasse Panel contributes to the FLRA=s performance, but their
employees still have minimal exposure to or integration into the current FLRA culture.
The same is true for the Office of the General Counsel Regional Office employees.




                                           29
                               FOR OFFICIAL USE ONLY

perspective. FLRA management has to adjust to the reality that newer professional hires
do not enter Government with the expectation of a long term commitment as did previous
hires. This will require FLRA management to focus on getting its work done in an
environment which will involve frequent staffing changes and, perhaps, lower experience
levels. FLRA has to adjust to the new Adynamics@ in the marketplace which will require
the development of strategies for recruiting and, retaining the best employees. Another
reality is that FLRA will have significant turnover as will other agencies but the effect will
be greater because of the smallness of the Agency. The FLRA will have to do a better job
of identifying workforce requirements, capitalize on the strengths of different employee
generations and develop new approaches to ensure an organizational culture that
supports positive changes.

Communication is another area that needs to be addressed and improved. Senior and line
Headquarters managers need to have more routine interaction among themselves as well
as with their staffs. Timely feedback from employees and line managers should be
considered important to senior levels of management. Feedback to employees on their
efforts, suggestions, proposals and even advice would have a positive effect on the
working environment and enhance employee motivation and productivity. Technology is
wonderful but it should not be allowed to eliminate face to face communication and
interaction.

The majority of managers focused on their own issues and did not appear to be
sufficiently Agency oriented. There is noticeable tension among a substantial amount of
FLRA managers and employees who do not understand why administrative changes are
being made and are resisting transition to the new Administration and FLRA leadership=s
vision. Management needs to Aget on board@ and become proactive and not reactive.
Leadership needs to communicate the current vision of the FLRA to senior and line
managers who, then, need to revise their management methods and engage in strategic
planning to meet the standards of the Chairman, FLRA and the President=s Management
Agenda. FLRA leadership needs to assure FLRA managers and employees that they are
valued and respected and that their functions are essential to the Agency. The current
FLRA environment needs more trust, more cooperation and more unity.

Mentoring is a cogent and important method for training current employees and growing
future leaders. It also helps forming positive relationships between supervisors/managers
and employees and can be evaluated as part of succession planning. It also creates trust,
loyalty and commitment to the organization. Cross functional rotations also help
employees understand other aspects of the environment and provides more internal
broad based awareness. Learning new approaches and applications broadens employees
perspectives and future leadership capabilities. In the past, FLRA management has been
somewhat reluctant to incorporate cross functional rotations and mobility into their
operations but such actions ultimately will benefit the Agency and employees.

Most employees were aware that the FLRA had developed a strategic plan but were not
aware of any updates or revisions and some had never been provided a copy of the initial
plan. Several employees commented that there are very few minorities are in high

                                             30
                              FOR OFFICIAL USE ONLY

positions and lower graded employees have low expectations. Several support personnel
stated that FLRA management focuses on its professional vice administrative support
personnel and does not credit or recognize administrative personnel for their ideas and
suggestions. One employee brought up the fact that most awards are based on a
percentage of the employee=s salary and that this caused working level employees to
receive much less than more senior employees. This individual stated that performance
awards should be balanced and based on performance rather than salaries.
While computer technology is definitely a work asset, it has diminished interactive
communication (staff meetings, briefings, etc.) at all levels. This may be part of the
reasons for FLRA=s tense environment. FLRA managers and employees needs to have
more face to face interactions and feel comfortable stating their perspectives,
understanding that final decisions will be made by senior leadership. Management
should restore monthly management meetings, specific offsite activities, and encourage
teamwork and organizational support and Areinstate@ teamwork at all levels.

Most managers agreed that a workforce planning strategy (both short and long term)
would be helpful for the FLRA to identify its current and future human capital needs. All
levels of management should be involved in this planning because they are all responsible
for ensuring that the FLRA=s mission is accomplished in an efficient and effective manner.
 Results oriented goals, program integrity, customer orientation, information security,
communication and feedback, behavior as well as core competencies are all linked to
human capital. Employees who had supervisors who conducted weekly staff meetings
appeared to be more motivated and dedicated to their jobs than those employees who had
supervisors that did not routinely provide them with component, Agency or
subcomponent information.

Most legal/labor management professional employees interviewed felt they had good
training and on the job instruction and successfully journeyed through their positions, but
were unhappy that their entry level and journeyman level positions were lower than other
similar Federal adjudicatory agencies. Several legal employees focused heavily on what
the Agency Aowed@ them rather than what responsibilities they, as employees, owed the
Agency. Several para-professionals felt their work was too clerical and that their
development was hindered by this situation. Some employees felt their efforts and
contributions to the Agency were not acknowledged properly and that sometimes Aa thank
you is worth more than a million dollars.@

Two years ago, the human capital review revealed that FLRA was ahead of most of the
other Agencies in the human capital area, as it should be because of the nature of its
mission. Some progress has been made in some of the noted areas of vulnerability, but
not enough. Management must adjust and successfully transition to the current
environment which is becoming prevalent in most Federal agencies, focus more on issues
and actions that affect the growth, progress and productivity of both the Agency mission
and employees. This is, indeed, a time of change and, perhaps an unwanted challenge to
some employees but they must understand that the purpose of this change is to
strengthen and perpetuate our existence. As citizens as well as Government employees,
all FLRA individuals have the same responsibility to go forward.

                                           31
                             FOR OFFICIAL USE ONLY


There has been a large turnover of employees during the last 6 months, including several
administrative and support program managers. The lack of succession planning,
sufficient documented policies and procedures, and continuing turnover of personnel
indicates that the FLRA needs to focus more productively on human capital issues and
employees need to be forthcoming and truthful about their concerns and reasons for
leaving the FLRA.




                                          32
                             FOR OFFICIAL USE ONLY

                              Status of Findings from
                           FY 2000 Human Capital Review

As part of this follow-up, the FLRA Inspector General met with the former Executive
Director, Director of Human Resources and the Assistant Director of Human Resources to
discuss the status of FLRA=s actual actions relating to the findings and recommendations
of the FY 2000 Human Capital Review. The following information provides the current
status of FY 2000 Human Capital corrective actions.

      1. Conduct exit interviews to provide annual data on the reasons
      employees leave FLRA.
      Exit Interviews are being conducted by the Human Resources Division,
      related data is being kept and a report has been issued. However, there is enough
      data to determine trends.

             a. FLRA Partnership Council research and develop employment
      retention incentives.
      The FLRA Partnership Counsel is no longer active so this recommendation has not
      been addressed. Management should address this issue and coordinate its
      incentives with the U.A.E.

      2. Review work requirements for entry level and journey level
      attorneys to validate grade levels.
      As a result of this recommendation, more GS-14 journeyman level positions have
      been created in the legal components but entry level attorneys are classified as
      GS- 9 and entry level labor management specialists are usually classified as GS-7.

      3. Budget 3% of yearly appropriation for employee training, require
      IDPs and discussions of training with supervisors and peers to get
      maximum return on training investments.
      (Rejected by former Management)
      Current management should reconsider this recommendation. The reality is that
      the FLRA does spend close to 3% on training even though the stated allowance is
      $500.00 per person and should get Ahuman capital credit@ for doing so. Most
      Headquarters employees do not have Individual Development Plans (OGC
      personnel do and upward mobility personnel should) and training is often
      duplicated among employees instead of being shared.

      4. Revitalize Upward Mobility Program for development of
      administrative support, para-professional and clerical personnel.
      The FLRA has placed a focus on revitalizing its upward mobility program. The
      FLRA currently has 2 non legal upward mobility positions (Office of the Inspector


                                          33
                      FOR OFFICIAL USE ONLY

General and Human Resources Division) and two being filled at this time in the
Authority Case Control Office.

      a. As vacancies occur, designate 2 positions for the Upward
      Mobility Program and open to all FLRA employees .( Previous
      management would not commit to a specific number of
      positions.)
      This recommendation has been addressed.

5. Educate supervisors on obligations and responsibilities in
personnel management and performance appraisals.
Some training was provided for supervisors in FY 2000, however, subsequent
oversight evaluations and investigations have revealed that FLRA supervisors
and managers still need more training in human capital aspects.

      a. Ensure that all first line supervisors have a human resource
      performance element and are rated on their supervisory
      performance and mentorship as well as technical elements.
      FLRA managers/supervisors currently have a performance element related
      to their supervision and human resource functions as well as their technical
      responsibilities.

      b. Plan activities, seminars, or offsites fostering communication
      between employees and management.
      During FY 2002, the FLRA held an off-site for Administrative Personnel
      which included Myers Briggs testing as well as training in specific
      administrative programs. Participating employee feedback was very
      positive. Similar activities should be planned for management and
      management/employees in the future.

6. Develop internal technical orientations for new employees at
the organizational element level and provide to new employees prior
to initial major workload assignments.
This is performed by individual managers and designated employees to help new
employees transition to the FLRA mission and environment. There is no
standardization of this process and each of the three major FLRA components
orient this initial training to their specific statutory mission.




                                   34
                       FOR OFFICIAL USE ONLY

7. Conduct position management reviews and/or workload analysis
on all FLRA employees. Consider FLRA=s vacated positions prior to
rehiring, and conduct workload analysis of all organizations to
ensure grade levels are proper, classification and allocations support
reoccurring mission essential workload. (Former FLRA management
did not concur.)
Prior FLRA management did not concur with this recommendation, however,
several position management reviews (Case Control Office, Authority) were
conducted by the former Director of Human Resources in FY 2000. The FLRA
Inspector General conducted a work analysis of FLRA management positions in
  FY 2002. A work analysis of working level employees should also be done.

8. Require all managers/supervisors to acquire training in human
resource and contemporary management skills within 6 months of
the acceptance of a management/supervisory position. All current
managers/supervisors should obtain this training within 6 months 0f
the issuance of this report.
Although this recommendation was reported to the Inspector General as
completed, this follow-up revealed that no agency-wide action has been taken to
implement this requirement.

       a. Sponsor periodic management meetings; invite community
speakers knowledgeable in contemporary human resource matters,
behavioral science and federal management practices to enhance
FLRA management/supervisors perspectives.
Some management meetings were conducted during FY 2001 by the former
Assistant to the Executive Director . The external briefings pertained to legal,
ethical, and some Federal program matters. None have been conducted during this
past year. Previous, FLRA management meetings were held periodically to inform
managers of Federal and senior leadership information and to encourage
individual managers to talk about what they were currently involved in. These
meetings were formulated by the FLRA Executive Director. Only one such meeting
regarding the geographical moving of the FLRA was held this past year.

9. Employees do not have sufficient security and health information
and implement an Agency- wide preventive Violence in the Workplace
Program.
While essential and emergency security information has been provided since the
September 11 , 2001 incident, the FLRA has still not implemented a contemporary
and sufficient Security Program. While health and security information are
distributed on a cyclic basis, many FLRA employees feel they are not sufficiently
informed. While violence in the workplace (includes verbal as well as physical) was


                                    35
                      FOR OFFICIAL USE ONLY

a focused issue for the FLRA in FY 2000, other than a briefing provided by the
FLRA Inspector General and the incorporation of this issue by the General Counsel
into the Office of the General Counsel Investigation Manual, no other formal
actions were performed by the FLRA.

10. U.A.E./FLRA review/revise, or cancel, as appropriate
Memorandums of Understanding executed prior to and including
1995.
According to the FLRA Executive Director, this recommendation has been
implemented and executed.




                                   36
